                             TESTIMONY OF

            THE HONORABLE DONALD A. GAMBATESA,

                         INSPECTOR GENERAL,

        U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                               BEFORE THE

            COMMISSION ON WARTIME CONTRACTING IN

                       IRAQ AND AFGHANISTAN



      “HOW GOOD IS OUR SYSTEM FOR CURBING CONTRACT
               FRAUD, WASTE, AND ABUSE?”



                              MAY 24, 2010


      I am pleased to appear before you to testify on behalf of the Office of

Inspector General (OIG) for the U.S. Agency for International Development

(USAID) and to be joined by my colleagues from the Departments of State

and Defense. Today, I would like to share information about our work in

Iraq and Afghanistan and the issues affecting USAID programs and

operations that we have identified. I would also like to discuss ways to
                                    -2-


address waste, fraud, and abuse in conflict settings and U.S. Government

approaches to future contingency operations.



         USAID OIG Activities and Observations for Improvements in

                          Iraq and Afghanistan



      Our office has conducted extensive oversight activities in Iraq and

Afghanistan for several years. We have built this history of engagement on

the strength of a committed workforce and are fortunate to have talented

employees who are willing to work in such difficult circumstances. We

have nine U.S. direct-hire auditors and investigators in Baghdad and are

building to similar staff levels in Kabul, augmented by Foreign Service

National personnel.    Meanwhile, our oversight efforts in Afghanistan

continue to receive support from auditors and investigators based in other

parts of the world.

      Our dedicated personnel in these countries have a track record of

identifying waste, fraud, and abuse and working to improve USAID program

management and operations. Since I last came before this Commission,

USAID OIG has completed a substantial amount of oversight work in Iraq

and Afghanistan.      From February 2009 to date, we have issued
                                    -3-


12 performance audits with 84 recommendations for USAID improvement

and completed 19 financial audits that identified $206 million in questioned

costs, of which $180 million were sustained.      Over the same term, we

opened 43 civil and criminal investigations, closed 17 investigations,

effected 10 arrests and 3 convictions, and secured $141 million in

investigative savings and recoveries for the Government.

      During the past 15 months, we have examined an array of

development programs that focus on such goals as improving local

governance, strengthening educational systems, expanding power generation

capacity, and laying the foundations for a modern, mixed-market economy.

Our audits of these programs frequently found that Agency contractors and

award recipients had completed many of their intended tasks and made

significant progress toward achieving program goals and objectives.

      Too often, however, our assessments also highlighted shortcomings in

contract and project management.          USAID monitoring personnel are

stretched thin in both countries, and they struggle to keep pace with an

expanding portfolio in Afghanistan. The results are predictable. In March

2009, we found that USAID/Iraq’s implementing partners could not detect

deficiencies in security subcontractors’ reporting of serious incidents
                                      -4-


because they had provided inadequate oversight of subcontractor practices in

this area.

        In April 2010, we reported that USAID officials had not reviewed

implementing partners’ performance reports or ensured that stated numbers

of program beneficiaries of services for internally displaced persons in Iraq

were accurate.      As a result, significant performance overstatements and

suspected fraud—which we are currently investigating—went undetected by

the Agency.

        Poor contract and program management practices are often associated

with weaknesses in staff training.      USAID employees have sometimes

lacked the experience and training needed to fulfill their responsibilities.

Our November 2009 audit of USAID’s efforts to enhance Afghanistan’s

power     sector,   for   example,   recommended   that   USAID    technical

representatives receive additional training on the proper preparation of

statements of work, because project implementation had suffered from an

ambiguous statement of work that did not require specific deliverables with

concrete delivery dates.

        Security issues are continuing problems for USAID in both Iraq and

Afghanistan, hindering program accomplishment and implementation.

Security conditions complicate site visits and meetings with partners.
                                     -5-


Because of security risks, implementing partners have curtailed or delayed

programs and lost critical momentum. In August 2009, we reported on

market renovation projects in Baghdad that had encountered security-related

issues that inhibited the operation of completed markets. In December 2009,

we reported that USAID’s work in Afghanistan to help those who have

suffered losses because of military operations had been hampered by

security-related hiring delays.   The program had significant difficulty

recruiting and hiring personnel because of the high-risk security

environment in which it operated. As a result, over a third of program

positions remained vacant almost 2 years after the program started.

      USAID programs also continue to face shortcomings in the quality of

data. USAID policy emphasizes the need for good data to form the basis for

sound programming decisions. However, our review of results reported for

the distribution of wheat seed and fertilizer in Afghanistan identified

irregularities in the supporting records and deficiencies in the methodology

used to calculate the activity’s assessed impact. The actual results achieved

under this activity and its impact on Afghan farmers were thus difficult to

assess.

      Security constraints, contract and project management difficulties, and

data quality issues have characterized USAID’s efforts in Iraq and
                                      -6-


Afghanistan.    We have noted security constraints in 61 percent of the

82 performance audits we completed since 2003. We reported contract and

project management difficulties in 45 percent of our audits conducted in this

period and data quality issues in 20 percent.

      Although we have not observed any clear trends upward or downward

in the prevalence of security and data issues, reports of contract and program

management deficiencies have increased steadily. Fewer than a third of our

fiscal year (FY) 2003 and 2004 performance audits noted contract and

program management deficiencies, but more than two-thirds of our FY 2009

and 2010 reports highlighted shortcomings in these areas.

      Project sustainability issues have also emerged more frequently in

recent assessments. We did not observe any serious sustainability issues in

USAID’s work in Iraq and Afghanistan until FY 2005. Since that time, our

performance audits have noted sustainability issues more and more often,

and about one in five of our FY 2009 and 2010 reports now notes these

issues. For instance, a recent audit of USAID efforts in Afghanistan noted

that the Agency had not done enough to prepare Afghan officials to manage

a data center with information on development projects for which they are

expected to assume responsibility in the future. Without increased attention
                                      -7-


to this issue, the estimated $3.9 million investment in the data center and the

information in its database could be lost.

      These and other performance issues contribute to an operating

environment that places U.S. Government funds at heightened risk of waste,

fraud, and abuse. We cannot measure the full extent of waste, fraud, and

abuse in Iraq and Afghanistan but can provide information on what we have

found. From 2003 to the present, we have submitted $4.9 billion of the

$17 billion USAID has obligated in Iraq and Afghanistan to in-country

financial audits.    These audits questioned $282 million in costs, or

approximately 6 percent of the total audited. Over that period, we identified

an additional $166 million in waste, fraud, and abuse in USAID’s Iraq and

Afghanistan program portfolio in the form of investigative savings and

recoveries.

      Last year, the amount of waste, fraud, and abuse that we identified

increased. Thus far, our FY 2009 investigative leads and referrals have led

to $101 million in investigative savings and recoveries—more than all of our

leads and referrals from FY 2003 to 2008 combined. A similar pattern

emerged with our audits, as the percentage of questioned costs arising from

in-country financial audits increased in FY 2009. This increase in observed

waste, fraud, and abuse is primarily associated with a small number of
                                     -8-


contracts with a few firms, but some of it may result from the growing

prevalence of contract and program management issues we have witnessed

during our performance audits.

      We have been working with USAID to respond to these issues and

combat conditions in which waste, fraud, and abuse can proliferate without

detection. To that end, in March 2010, we provided a report to the new

Administrator on the Agency’s management and performance challenges

that highlighted difficulties in Iraq and Afghanistan. Since 2003, we have

also provided 75 fraud awareness briefings to more than 1,500 USAID

employees, contractors, and subrecipients.

      USAID and other U.S. Government agencies active in development

work can reduce contracting waste, fraud, and abuse in the short term by

improving the contracting instruments they use.          USAID contracting

instruments have too often placed incentives on the number of tasks

completed rather than the ultimate results they deliver. Also, most USAID

contracts are negotiated on a cost-reimbursable basis, in which USAID,

rather than the contractor, bears the cost risk. Excessive reliance on these

types of contracts creates a risk that taxpayer funds will be spent on

contracts that are wasteful or inefficient or that otherwise fail to serve the

needs of the Federal Government. USAID can improve accountability by
                                        -9-


structuring future contracts to hold contractors accountable for specific

deliverables that support development aims.

      In addition to USAID’s ability to address the aforementioned issues,

the Agency’s success in conflict zones over the coming year will be shaped

by its responses to two noteworthy challenges. First, at present, USAID

does not have a sufficient number of qualified personnel on the ground to

properly monitor its development projects in Iraq and Afghanistan.

USAID’s ability to field experienced personnel in the coming months and

provide them with the training, facilities, and support they need to do their

jobs will have major implications for the success of future development

initiatives. While ensuring that it has appropriate personnel in place, USAID

must also overcome the problems associated with frequent turnover of staff

by establishing and maintaining systems and processes for retaining and

transmitting institutional knowledge.

      Second, the U.S. Government must develop an approach to building

host country capacity that balances the imperative for local engagement in

the development process with effective stewardship of taxpayer dollars. As

part of the U.S. Government’s commitment to Paris Declaration principles,

USAID is channeling increasing levels of development funding directly to

foreign governments. By leading the resulting development projects, a host
                                    -10-


government can shape more development activities, promote project

sustainability, and build public confidence in the government’s ability to

deliver programs that improve the welfare of the people. However, many of

these governments are still developing the capacity to manage projects and

monitor and account for associated resources. This places Federal dollars at

greater risk of waste, fraud, and abuse. OIG has systems in place to provide

audit coverage of U.S. and foreign grantees and contractors but is limited in

its oversight of funds provided as direct budget support to foreign

government entities. Accordingly, USAID must develop robust alternatives

for ensuring that these funds are expended as planned and that they

contribute to development objectives.



            Systems for Addressing Waste, Fraud, and Abuse



      We believe that we have instituted effective systems for detecting,

investigating, and prosecuting waste, fraud, and abuse in Iraq and

Afghanistan.   Our strong onsite presence and outreach work in these

countries promote fraud awareness and help to serve as a deterrent. We

have executed a comprehensive plan of program audits on USAID’s
                                    -11-


performance, performed financial audits of contractors and grantees, and

conducted proactive and reactive investigations.

      Our success in establishing these oversight activities has not been

without difficulty. The process of recruiting, hiring, clearing, and training

new personnel has been time and resource intensive. Given the size of our

organization, limited pool of Foreign Service personnel, and current 1-year

tours to Iraq and Afghanistan, we have limited flexibility in assigning and

deploying personnel to these posts. Travel restrictions and security concerns

sometimes limit our ability to conduct routine audit and investigative work.

Living and working conditions for our personnel in Afghanistan are

cramped.

      Although they are faced with a very difficult working environment,

our staff has made major strides in combating fraud. Recent audits have

identified instances of potential fraud involving fictitious invoices, cost

manipulation, and other improper billing practices; falsification of employee

timesheets; and anomalies in signatures and fingerprints submitted as

evidence of payments to beneficiaries.      Our investigative efforts have

yielded impressive results as well. An OIG investigation of a conspiracy to

sell privileged information led to two arrests and the cancellation of a

$62 million security subcontract. Meanwhile, an investigation into a scheme
                                     -12-


to obtain reimbursement for inflated expenses for rental vehicles, fuel, and

security personnel led to $24 million in savings and the indefinite suspension

of the company and associated personnel from doing business with the U.S.

Government.

      Our oversight in Iraq and Afghanistan is our top priority, and we will

continue to engage in a high level of activity there. As I mentioned earlier,

we are increasing our presence in Afghanistan, and we continue to seek

additional qualified personnel with relevant language skills and cultural

knowledge. Given the volume of civil and criminal allegations that we have

been receiving, we will look to expand our investigative presence in

Afghanistan further in the coming years. In the meantime, we would benefit

by sharing in some of the human capital flexibilities enjoyed by other

organizations operating in these areas, such as the direct authority to bring

aboard personal services contractors and waive compensation restrictions on

reemployed annuitants.

      For its part, USAID has recently taken noteworthy steps to reduce

risks to Federal funds. USAID has committed to double the size of its

Foreign Service by 2012 through the Development Leadership Initiative.

The 200 additional Foreign Service officers it plans to hire in FY 2011 will

help expand the number of personnel it can draw from to strengthen its
                                     -13-


presence in Iraq and Afghanistan. In February 2010, USAID established a

Board for Acquisition and Assistance Review consisting of senior Agency

officials to review a subset of proposed awards including indefinite quantity

contracts, sole-source contracts, and other awards with limited competition.

The Board provides guidance on whether to restructure these proposed

awards to enhance competition, increase transparency, and expand

opportunities for small organizations and for women and minorities. In

May 2010, USAID also formed a procurement reform group to examine

ways to broaden USAID’s partner base and improve the design and delivery

of foreign assistance through contracts and grants.

      Nevertheless, USAID and other Federal agencies can do more to

prevent waste, fraud, and abuse by increasing their attention to poorly

performing contractors.    Agencies can respond to serious performance

problems by suspending or debarring them from receiving future grants and

contracts. Unfortunately, there is substantial evidence that these exclusions

are applied on a limited and uneven basis. In recent years, five inspectors

general and the Government Accountability Office have reported on

suspension and debarment deficiencies across the U.S. Government. I regret

to say that USAID’s suspension and debarment performance has been no

exception. In September 2009, we reported that USAID had not considered
                                    -14-


all of the types of cases it should have for possible suspension and

debarment action.    We also found that the Agency had not properly

implemented its suspension and debarment decisions. For example, USAID

did not consistently enter debarred firms into the Government-wide system

for tracking entities excluded from receiving Federal awards. Moreover, we

learned that USAID could not establish that it had performed required

checks on prospective contractors to ensure that they were not barred from

future Federal awards. Fortunately, we found no instances in which USAID

had provided funds to excluded parties.



                     Future Contingency Operations



      Contingency operations have become a feature of our international

engagement in recent years.      The Special Inspector General for Iraq

Reconstruction (SIGIR) recently suggested that Congress establish a U.S.

Office for Contingency Operations (USOCO) to plan and execute the subset

of civil-military operations that occur in conflict zones.      Although

interagency coordination and management of these operations could be

improved, creating an additional layer of bureaucracy of this kind may not

be the best way to effect these improvements. Historically, the subset of
                                     -15-


operations that a USOCO would manage has represented a small fraction of

the overall foreign assistance enterprise. Stabilization and reconstruction

operations are associated with significant levels of spending but have

accounted for only six percent of total U.S. foreign assistance between 1946

and 2008. Moreover, it is unclear that a USOCO would consistently serve a

meaningful purpose.      According to information in SIGIR’s report on

applying lessons from Iraq, there were no stabilization and reconstruction

operations during 30 of the past 60 years.

      There are many possible solutions to challenges in the coordination

and management of contingency operations.         Some existing approaches

could help improve future coordination and management and other solutions

may emerge from ongoing policy discussions.          If these efforts do not

succeed, we should then explore other options.

      With regard to oversight of contingency operations, we believe that

the statutory inspectors general already in place can respond effectively to

future contingency operations within their respective areas of responsibility.

We see no need to establish a Special Inspector General for Overseas

Contingency Operations, because the inspectors general for the Departments

of State and Defense, USAID, and other agencies serving abroad can

provide the necessary oversight. Each of our organizations has unmatched
                                    -16-


knowledge of and experience working with the organizations that we

oversee.    We have reported on the lessons from previous contingency

operations and bring an understanding of these lessons with us as we assess

the progress of new contingencies that arise. For instance, to help USAID

guard against waste, fraud, and abuse in Haiti following the January 2010

earthquake, we published a report with examples of issues that we had

observed in past humanitarian assistance efforts and suggestions for

improving their implementation in the future.

      Following Hurricane Katrina, the inspector general community rallied

to provide coordinated oversight across 13 Federal departments and

agencies.   USAID OIG likewise applies its institutional knowledge and

expertise in coordination with other organizations to ensure comprehensive

oversight coverage in conflict settings. We engage in joint forums to share

information and harmonize our plans and activities. We participate in the

Southwest Asia Joint Planning Group and chair the Afghanistan-Pakistan

Subgroup, which acts as the central point for sharing information and

coordinating planned audits, reviews, and inspections. Working with the

Office of the Special Representative for Afghanistan and Pakistan, we

recently issued a multiagency quarterly report delineating the oversight

efforts of the three offices of inspector general operating in Pakistan. We
                                   -17-


also participate in the National Procurement Fraud Task Force, assist the

Department of Justice in addressing procurement and grant fraud, and

conduct joint investigations in Iraq and Afghanistan.      These valuable

exchanges promote a concerted and thorough approach to combating waste,

fraud, and abuse.

      I thank you for this opportunity to address the Commission and

appreciate your interest in our work and perspectives on these important

topics. I would be happy to answer any questions you may have at this time.
